                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AUDIT OF CORPORATION FOR NATIONAL AND
      COMMUNITY SERVICE GRANTS AWARDED TO
            OPERATION REACH, INC.

                     OIG REPORT 12-15




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                        (202) 606-9390




This report was issued to Corporation management on August 28, 2012. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than February 28, 2013 and complete its corrective actions by August 28,
2013. Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                                            CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1

Results of Audit .................................................................................................................. 3

Objectives, Scope, and Methodology ................................................................................. 16

Background ........................................................................................................................ 18

Exit Conference .................................................................................................................. 19



Appendices

A:   Details of Unallowable, Unallocable, and Unsupported Costs Charged to Grants
B:   Details of Questioned Employee Payroll Costs
C:   Details of Questioned Member Timekeeping Costs
D:   Details of Questioned Member Ineligibility Costs
E:   Operation REACH, Inc.’s Response to Draft Report
F:   Corporation’s Response to Draft Report



                                                    TABLE OF ACRONYMS



                         CEO             Chief Executive Officer
                         CFR             Code of Federal Regulations
                         FAS             Statement of Financial Accounting Standards
                         GAAP            Generally Accepted Accounting Principles
                         GYAC            Gulfsouth Youth Action Corps
                         NSOPR           National Sex Offender Public Registry
                         OIG             Office of Inspector General
                         OMB             Office of Management and Budget
                         ORI             Operation REACH, Inc.
                         PER             Periodic Expense Report
                         SAS             Statement on Auditing Standards
                         USC             United States Code
                         VAD             VISTA Assignment Description
                         VISTA           Volunteers in Service to America
                                                  EXECUTIVE SUMMARY

An audit of grants awarded by the Corporation for National and Community Service
(Corporation) to Operation REACH, Inc. (ORI) identified costs of $886,845 that were
unsupported by required documentation and/or incurred improperly, in violation of applicable
laws, regulations and grant terms and conditions. This represents 36 percent of the $2.5 million
in grants awarded to ORI during the period from June 2008 to September 2011. The Office of
Inspector General (OIG) audit also discovered pervasive noncompliance and internal control
deficiencies across all of the Corporation’s sponsored programs, many of which persisted
despite ORI’s prior assurances to multiple State Commissions that these problems were being
rectified. Inadequate financial management, poor record retention and lack of oversight of
service sites resulted in substantial mismanagement of Federal and match funds. These
deficiencies placed Federal funds at such substantial risk that, in the midst of the audit, the OIG
alerted the Corporation and representatives of the State Commissions of Alabama, Louisiana
and Georgia, enabling them to take immediate action to prevent further losses.

The audit objectives were to determine whether: (1) ORI’s financial, grant, and program
management were compliant with the requirements of the grant, and (2) ORI’s AmeriCorps and
VISTA members, and the programs (including subrecipients) funded by the grants, complied
with applicable laws, regulations, and grant provisions.

Our audit covered grants administered by ORI for the Corporation’s national service programs,
including AmeriCorps National Direct, AmeriCorps State grants (Louisiana, Alabama, and
Georgia), Volunteers in Service to America (VISTA), and Learn and Serve America, over a
three-year period. We assessed ORI’s control environment and accounting system and tested
ORI’s financial management over its material transaction cycles, including employee payroll,
AmeriCorps members education awards and living allowance, and other Federal and match
direct costs. Because ORI no longer receives Federal grant funds from the Corporation, this
audit report focuses on findings that resulted in questioned costs.

Prior to our audit, single audit1 and grant monitoring by the State Commissions disclosed
significant, widespread noncompliance and internal control weaknesses across all the
Corporation’s grants administered by ORI. Although ORI represented that it had addressed
these concerns, our audit revealed that many of these problems persisted and identified
additional serious violations. The issues that resulted in questioned costs included:

        Unallowable, Unallocable, and Unsupported Costs Charged to Grants;
        Employee Payroll Deficiencies;
        Member Timekeeping Deficiencies;
        Member Ineligibility;
        Unallowable Service by a VISTA Member; and
        Improper Accounting and Unsupported Program Income.




1
 Office of Management and Budget (OMB) Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations,
Subpart B -- Audits, §___.200, Audit requirements., (b), states “[n]on-Federal entities that expend $300,000 ($500,000 for fiscal
years ending after December 31, 2003) or more in a year in Federal awards shall have a single audit conducted.”
                                                               1
The table below quantifies the questioned costs associated with each of these findings:

                                        Questioned   Questioned     Questioned       Total
                                         Federal       Match        Education      Questioned
              Findings                   Costs ($)    Costs ($)     Awards ($)      Costs ($)
 Unallowable, Unallocable, &              134,207     215,262              -        349,469
 Unsupported Costs Charged to
 Grants
 Employee Payroll Deficiencies            66,919        12,027              -         78,946
 Member Timekeeping                      195,986             -         94,347 *      290,333
 Deficiencies
 Member Ineligibility                     31,529              -             -         31,529
 Unallowable Service by a VISTA            9,497              -         5,550         15,047
 Member
 Improper Accounting &                   121,521              -             -        121,521
 Unsupported Program Income
              Total ($)                  559,659       227,289         99,897        886,845
* Included accrued interest of $2,222

Internal control failure, lack of central monitoring by management, and unusually high employee
turnover contributed to these long-standing issues at ORI. ORI failed to apply basic cost
principles and adhere to the terms of its grant awards. Its financial management was weak, and
its record keeping/retention was poor. A substantial number of the transactions that we tested
were not supported by documentation, including employee payroll, member timekeeping and
the eligibility of members to participate in the program and/or receive education awards.
Further, ORI often assigned staff and charged their time to grants for which they were not
authorized. ORI also failed to demonstrate and support any use of program income. ORI’s high
employee turnover contributed to these problems, as did its weak internal control environment
and lack of proper supervision of program sites.

The preliminary findings from our second site visit in September 2011 were so alarming that we
presented a management alert to Corporation personnel and representatives from the Alabama,
Georgia, and Louisiana Commissions to discuss our concerns and preliminary audit findings.
Upon return from our second site visit, we advised the Corporation to take action and it placed a
hold on ORI’s access to grant funds. All National Direct grants to ORI ended on September 30,
2011. The Louisiana and Alabama State Commissions did not renew their grants, and the
Georgia State Commission, which had initially renewed its grants to ORI, terminated them
shortly thereafter, in early October 2011.

Our audit findings result in questioned costs totaling $886,845 ($559,659 Federal costs,
$99,897 education awards, and $227,289 match) for violations of applicable laws, regulations
and grant terms, and recommend that ORI be required to reimburse the Corporation and State
Commissions. Given the fundamental and pervasive nature of these problems, the Corporation
should not consider awarding another grant to ORI, unless it can demonstrate that all of these
internal control and noncompliance issues have been resolved completely.




                                               2
The table below shows the amount of the Corporation’s grants and the questioned costs
associated with each:
                                               Awarded     Questioned      Questioned   Questioned     Total
                                                Federal     Federal          Match      Education    Questioned
                     Grant          Audit      Amounts       Costs           Costs       Awards        Costs
  Programs          Number          Period        ($)         ($)             ($)          ($)          ($)
   National      08NDHLA001        6/01/08 –   1,041,889       199,250       17,033       47,000      263,283
 Direct Grant                       7/15/11
  Louisiana       09ACHLA001       7/08/10 –    430,171         76,439       82,275           -       158,714
 State Grant                        7/15/11
   Alabama       09ACHAL001        6/11/10 –    280,757         71,804       16,753       17,119 @    105,676
 State Grant        0003            7/15/11
   Georgia       06AFHGA001        6/01/10 –    514,585        109,757      111,228       25,228 #    246,213
 State Grant         004            7/15/11
   Learn &       10LSWLA002        5/01/10 –    200,000         92,912           -         5,000       97,912
 Serve Grant                        4/30/11
 VISTA Grant     08VSWLA004        7/16/09 –          -         9,497            -         5,550       15,047
                                    9/15/11
                                   Total ($)   2,467,402       559,659      227,289       99,897      886,845
@ Included accrued interest of $1,069
# Included accrued interest of $1,153


                                                RESULTS OF AUDIT

Finding 1. Unallowable, Unallocable, and Unsupported Costs Charged to Grants

During our transaction testing, we noted that a significant portion (87 percent) of sampled
transactions should not have been charged to the Corporation’s grants. We judgmentally
selected a sample of 52 direct cost transactions from ORI’s general ledger, as we determined
whether transactions were properly supported, allowable in accordance with applicable laws
and regulations, and allocable to grants. Based on our testing results, we identified the
following issues:

        Lack of supporting documentation to validate transactions and grant costs;
        Improper allocation of program expenses to the appropriate grant;
        Unallowable expenses charged to the grants; and
        Insufficient documentation to support the fair market value of the reported in-kind labor
         and rent match costs.

We noted that 45 of 52 transactions we reviewed had at least one of the above issues, which
resulted in questioning a total of $134,207 Federal costs and $215,262 match costs.

The following table shows details of questioned costs by each program we reviewed:

                                                    Questioned           Questioned        Total
                                                      Federal              Match         Questioned
                    Programs                         Costs ($)            Costs ($)       Costs ($)
                  National Direct                      38,368               8,865          47,233
           AmeriCorps State – Louisiana                 6,419              81,144          87,563
           AmeriCorps State – Alabama                     862              15,877          16,739
            AmeriCorps State – Georgia                      -             109,376         109,376
                  Learn & Serve                        88,558                    -         88,558
                     Total ($)                       134,207              215,262         349,469
                                                           3
Refer to Appendix A, Details of Unallowable, Unallocable, and Unsupported Costs Charged to
Grants, for details of types of deficiencies and questioned costs of all samples which we
identified issues.

Our transaction testing results reflected ORI’s lack of understanding of cost principles and grant
provisions as well as weaknesses in ORI’s financial management and record retention. For
example, most of our sampled in-kind match transactions related to donated rent and labor at
ORI’s service sites; we noted that the only supporting documentation were invoices for the
monthly rent and labor amounts. We requested documentation to support the fair market values
and their calculations for in-kind rent and labor. However, ORI was unable to provide any
documentation so that we could assess the reasonableness of the in-kind match valuation.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A. Basic
Considerations, Paragraph A.4. Allocable costs, subsection (b), states:

       Any cost allocable to a particular award or other cost objective under these
       principles may not be shifted to other Federal awards to overcome funding
       deficiencies, or to avoid restrictions imposed by law or by the terms of the award.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Paragraph A.2. Factors
Affecting Allowability of Costs, states:

       To be allowable under an award, costs must meet the following general criteria:

       a. Be reasonable for the performance of the award and be allocable thereto
          under these principles.

       b. Conform to any limitations or exclusions set forth in these principles or in the
          award as to types or amount of cost items.

       c. Be consistent with policies and procedures that apply uniformly to both
          federally financed and other activities of the organization.

       d. Be accorded consistent treatment.

       e. Be determined in accordance with generally accepted accounting principles
          (GAAP).

       f.   Not be included as a cost or used to meet cost sharing or matching
            requirements of any other federally financed program in either the current or
            a prior period.

       g. Be adequately documented.

Statement of Financial Accounting Standards (FAS) No. 116, Accounting for Contributions
Received and Contributions Made, Paragraphs 8 and 9, states in part:

       … [C]ontributions received shall be recognized as revenues or gains in the
       period received and as assets, decreases of liabilities, or expenses depending on
       the form of the benefits received. Contributions received shall be measured at
                                                4
       their fair market values. Contributions received by not-for-profit organizations
       shall be reported as restricted support or unrestricted support...

       Contributions of services shall be recognized if the services received (a) create
       or enhance nonfinancial assets, or (b) require specialized skills, are provided by
       individuals possessing those skills, and would typically need to be purchased if
       not provided by donation. Services requiring specialized skills are provided by
       accountants, architects, carpenters, doctors, electricians, lawyers, nurses,
       plumbers, teachers, and other professionals and craftsmen. Contributed
       services and promises to give services that do not meet the above criteria shall
       not be recognized.

Recommendations

We recommend that the Corporation:

       1a. Disallow and recoup the questioned cost of $134,207; and

       1b. Analyze the impact of the $215,262 questioned match costs.

ORI’s Response

ORI disagreed with the finding. ORI stated that it relied on its host sites to retain documentation
to support valuation of in-kind contributions. ORI also stated that it did not require detailed
supporting documentation for valuation unless there was a need for auditing the partner
agencies.    ORI believed it should be allowed time to request additional supporting
documentation from ORI’s partners for fair market values reported and estimated by its
partners.

OIG’s Comment

While ORI disagreed with the finding in its entirety, its response does not address two of the
four deficiencies that we found. Those deficiencies—the improper allocation of grant costs and
the unallowable expenses—account for $221,264, or 63.3 percent, of the costs questioned
under Finding 1. Refer to Appendix A for details.

With respect to the other deficiencies, ORI submits that it should not be held responsible for the
failure to maintain adequate documentation of grant costs, including the lack of documentation
supporting the valuation of in-kind contributions. Instead, it contends that it relied upon others to
maintain those records. However, OMB circulars and Corporation grant provisions require
grantees to maintain sufficient documentation to support grant costs, and ORI was not permitted
to shift this responsibility to others. In particular, mere assurances that ORI charged to the
grants for the costs that it actually incurred to rent service sets are not sufficient; the purpose of
documenting fair market value is to ensure that such actual costs reflect arms-length
transactions on commercially reasonable terms. ORI’s responsibility to account for Federal
funds exists throughout the grant life cycle, not merely when required to produce relevant
records for an audit.




                                                  5
Finding 2. Employee Payroll Deficiencies

We selected 15 ORI employees to determine whether their time was appropriately charged
against the Corporation grants. Our results revealed deficiencies related to the ORI’s
employees payroll process. A significant portion, 67 percent (10 of 15), of our sample contained
one or more deficiencies as noted below:

      Employees charged work hours on timesheets for programs and/or projects that they
       were not assigned based on the budget narratives;
      Employee timesheets were missing; and
      Employee timesheets did not support work hours recorded on the employee payroll
       register.

Based on our testing results and employee payroll deficiencies identified above, we calculated
employee work hours that were not properly approved, and could not be validated or supported.
As a result, we have questioned a total of $66,919 Federal costs and $12,027 match costs.

The following table shows details of questioned costs by each program we reviewed:

                                         Questioned       Questioned         Total
                                          Federal           Match         Questioned
                 Programs                 Costs ($)        Costs ($)       Costs ($)
               National Direct             49,767            8,168          57,935
        AmeriCorps State – Louisiana        4,143            1,131           5,274
        AmeriCorps State – Alabama          4,348              876           5,224
         AmeriCorps State – Georgia         4,307            1,852           6,159
               Learn & Serve                4,354                 -          4,354
                  Total ($)                66,919           12,027          78,946

Refer to Appendix B, Details of Questioned Employee Payroll Costs, for details of types of
deficiencies and questioned costs of all samples which we identified issues.

We noted that the high employee turnover attributed to unauthorized cross-utilization of ORI’s
employees among various AmeriCorps programs. As a result, for a significant number of
employee timesheets we reviewed, many ORI employees reported time on programs which
were not authorized by the budget narrative, or reported work hours which exceeded the
percentage authorized by the budget narrative. Also, a lack of oversight of ORI’s employee time
reporting, and weaknesses in ORI’s record retention greatly hindered its ability to adequately
support its employees’ time reporting and ultimately its labor charges to the Corporation.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B. Selected
Items of Cost, Paragraph 8.m. Support of salaries and wages, states in part:

       (1) Charges to awards for salaries and wages, whether treated as direct costs or
       indirect costs, will be based on documented payrolls approved by a responsible
       official(s) of the organization. The distribution of salaries and wages to awards
       must be supported by personnel activity reports, as prescribed in subparagraph
       (2), except when a substitute system has been approved in writing by the
       cognizant agency.

                                               6
       (2) Reports reflecting the distribution of activity of each employee must be
       maintained for all staff members (professionals and nonprofessionals) whose
       compensation is charged, in whole or in part, directly to awards. In addition, in
       order to support the allocation of indirect costs, such reports must also be
       maintained for other employees whose work involves two or more functions or
       activities if a distribution of their compensation between such functions or
       activities is needed in the determination of the organization's indirect cost rate(s)
       (e.g., an employee engaged part-time in indirect cost activities and part-time in a
       direct function). Reports maintained by non-profit organizations to satisfy these
       requirements must meet the following standards:

              (a) The reports must reflect an after-the-fact determination of the actual
              activity of each employee. Budget estimates (i.e., estimates determined
              before the services are performed) do not qualify as support for charges
              to awards.

              (b) Each report must account for the total activity for which employees are
              compensated and which is required in fulfillment of their obligations to the
              organization.

Recommendations

We recommend that the Corporation:

       2a. Disallow and recoup the questioned cost of $66,919; and

       2b. Analyze the impact of the $12,027 questioned match costs.

ORI’s Response

ORI stated that it used electronically approved timekeeping systems that were reviewed and
approved by the Corporation program officers prior to implementation. It also stated that it
should be able to charge Federal grants for the time of professionals without maintaining
timesheets, because “the complexity of timekeeping would substantially affect the ORI
organizational culture.” While ORI concurred with our observation regarding ORI’s employee
high turnover, it did not understand that it was necessary to report staff changes. Also, ORI
stated that there were undue delays with reimbursements from State Commissions and it
hindered ORI’s ability to hire critical staff positions to manage requirements for AmeriCorps
programs.

OIG’s Comment

ORI’s response does not address the core of our findings: employees consistently charged time
to programs to which they were not assigned, employee time records did not match payroll and
timesheets were missing. Employee timekeeping is a core responsibility of a grantee.
Assuming for the sake of argument that reimbursements from the State Commissions were
delayed without justification, that does not relieve the grantee from its obligation to maintain
accurate and complete records to support the hours charged and does not authorize a grantee
to shift its employees from one grant to another.


                                                 7
Finding 3. Member Timekeeping Deficiencies

We noted that all 50 members’ timesheets sampled contain various types of deficiencies.
These member timekeeping deficiencies reflect ORI’s lack of controls over its member
timekeeping review and record retention process. The following specific member timekeeping
deficiencies, which resulted in a total of $290,333 questioned costs (questioned living allowance
and benefits of $195,9862 and questioned education awards of $94,347), included:

        Missing member timesheets;
        Missing member’s signature and/or supervisor’s approval signature on member
         timesheets;
        Member timesheets were reviewed and approved by supervisors prior to last day of the
         timekeeping period; and
        Member timesheets were not segregated by projects.

We noted widespread member timekeeping problems for all Corporation’s grants that ORI
administered. As our member timekeeping reviews covered all weekly timekeeping periods
during member’s service term, we noted that 19 of 50 members selected for testing contained at
least two or more timekeeping deficiencies as mentioned above. For example, based on our
review of all 12 weekly member timesheets of an AmeriCorps member who served quarter-time
under a National Direct grant, all four above-mentioned timekeeping deficiencies were noted
from the member’s seven weekly timesheets3. Because of these four types of timekeeping
deficiencies noted from the member’s timesheets, 254.5 of 501 hours charged could not be
validated during the entire service term, which resulted in a total of $2,542 questioned costs.
For the 50 members sampled, we verified from eSPAN4 that 38 members finished their service
terms and earned education awards; however, none of these 38 members would qualify for
education awards after excluding improperly approved, unvalidated, and unsupported member
service hours.

The following table shows details of questioned costs by each program we reviewed:

                                                        Questioned           Questioned             Total
                                                         Federal             Education            Questioned
                  Programs                               Costs ($)           Awards ($)            Costs ($)
                National Direct                           78,548               47,000              125,548
        AmeriCorps State – Louisiana                      13,086                    -               13,086
         AmeriCorps State – Alabama                       55,328               17,119 @             72,447
         AmeriCorps State – Georgia                       49,024               25,228 #             74,252
                Learn & Serve                                   -               5,000                5,000
                   Total ($)                             195,986               94,347              290,333
@ Included accrued interest of $1,069
# Included accrued interest of $1,153

2
  We questioned the members’ living allowance ($178,650) and benefits ($17,336) limited to those pay periods where we noted
timekeeping deficiencies.
3
  We noted other timekeeping compliance issues for other four weekly member timesheets. As explained further in the “Objectives,
Scope, and Methodology” section in this report, we did not report ORI’s compliance and internal control findings because ORI no
longer has Corporation grants and those findings did not result in questioned costs.
4
 eSPAN is the Corporation’s in-house information system, processes education award payments for the AmeriCorps National
Service Program. It interfaces with Momentum, the Corporation’s core financial management system. eSPAN also records
AmeriCorps members personal information, program service information, and education award status.
                                                               8
Refer to Appendix C, Details of Questioned Member Timekeeping Costs, for details of the types
of deficiencies and questioned costs we identified.

ORI control failures regarding its member timekeeping reviews and record retention practices
were noted at all ORI’s service sites and resulted in questioned education awards and related
costs. There was serious lack of monitoring and proper review process from the ORI
headquarters regarding its member timekeeping. For example, the ORI headquarters was not
aware its service sites maintained their own timesheets, and there were instances where
timesheet information was different between the information maintained by service sites and the
ORI headquarters (OnCorps timekeeping system). Further, timesheets from OnCorps were not
reviewed and approved by the member’s direct supervisor, who had first-hand knowledge of the
member’s activities and actual hours worked. Instead, those timesheets from OnCorps were
approved by the ORI headquarters in New Orleans, LA, which did not have daily direct
interactions with those members serving at service sites in Alabama and Georgia.

AmeriCorps 2009 Grant Provisions, Section IV.C.4. Timekeeping, states:

       The grantee is required to ensure that time and attendance recordkeeping is
       conducted by the individual who supervises the AmeriCorps member. This time
       and attendance record is used to document member eligibility for in-service and
       post-service benefits. Time and attendance records must be signed and dated
       both by the member and by an individual with oversight responsibilities for the
       member.

AmeriCorps 2009 Grant Provisions, Section IV. F.1. Living Allowance Distribution, states:

       A living allowance is not a wage. Grantees must not pay a living allowance on an
       hourly basis. Grantees should pay the living allowance in regular increments,
       such as weekly or bi-weekly, paying an increased increment only on the basis of
       increased living expenses such as food, housing, or transportation. Payments
       should not fluctuate based on the number of hours served in a particular time
       period, and must cease when a member concludes a term of service.

Other member timekeeping compliance issues noted during the audit included: untimely
completion and review of member timesheets; multiple versions of member timesheets with
conflicting service hours; member timesheets were not segregated between direct service and
training; and service hours were not reconciled between member timesheets and eSPAN
records. As noted previously, because ORI is no longer a grantee with the Corporation, we do
not report ORI’s compliance and internal control findings in this report as we focused on audit
issues which resulted in questioned costs.

Recommendation

We recommend that the Corporation:

       3. Disallow and recoup the questioned cost of $290,333.




                                               9
ORI’s Response

ORI stated that it used an approved electronic timekeeping system, OnCorps, for its
AmeriCorps members. Although ORI stated that it provided training to all host site supervisors
on timekeeping, it was not aware of another timekeeping system that was maintained at its host
sites. ORI explained it was beyond ORI’s control and OnCorps served as the only system used
for its member timekeeping. However, ORI also concurred with the finding that AmeriCorps
members may not have consistently disaggregated how they recorded their service hours on
their timesheets.

OIG’s Comment

ORI does not dispute the underlying facts but again attempts to shift responsibility to the host
site supervisors. ORI has the ultimate oversight responsibility of its host sites, and that
responsibility is not delegable. The pervasiveness of these errors suggests that the problem
was program-wide, and if ORI remained ignorant, its supervision was deficient.


Finding 4. Member Ineligibility

We selected 50 AmeriCorps members from the ORI’s member roster within the audit scope
period to determine whether members were eligible to serve in the AmeriCorps program. Based
on our review of the member files, we identified 21 members who were ineligible to participate in
the program due to the lack of evidence of the required State Criminal Registry Check, National
Sex Offender Public Registry (NSOPR) check, or a high school diploma (including members’
written declaration regarding high school diploma requirements). As a result, we have
questioned a total of $31,529 in Federal costs.

Without a copy of the member’s high school diploma or member’s written declaration regarding
high school diploma requirements in his/her member file, we could not validate if a member
completed his/her high school term and fulfilled the AmeriCorps eligibility requirement. Also, a
member’s eligibility in the AmeriCorps program could not be verified without the missing criminal
history or NSOPR checks since we could not confirm if a member’s background checks were
properly conducted, or conducted at all by ORI. Failure to perform State Criminal Registry
Checks/NSOPR checks on a member could result in participation by ineligible members who
are potentially dangerous to individuals they are serving.

The following table shows details of questioned costs by each program we reviewed:

                                                          Questioned
                              Programs                  Federal Costs ($)
                             National Direct                19,678
                      AmeriCorps State – Louisiana            5,779
                      AmeriCorps State – Alabama              2,622
                       AmeriCorps State – Georgia             3,450
                               Total ($)                    31,529

Refer to Appendix D, Details of Questioned Member Ineligibility Costs, for details of the types of
findings and questioned costs we identified. Note that in the previous finding “Member
Timekeeping Deficiencies,” we presented questioned education awards and part of the living
                                               10
allowance5 for all 21 members with member eligibility issues because we also identified member
timekeeping deficiencies for these 21 members. In this finding, we questioned the remaining
living allowance for the 21 members.

45 Code of Federal Regulations (CFR) §2540.202, What two search components of the
National Service Criminal History Check must I satisfy to determine an individual's suitability to
serve in a covered position?, states:

            Unless the Corporation approves an alternative screening protocol, in
            determining an individual's suitability to serve in a covered position, you are
            responsible for conducting and documenting a National Service Criminal History
            Check, which consists of the following two search components:

            (a) State criminal registry search. A search (by name or fingerprint) of the State
            criminal registry for the State in which your program operates and the State in
            which the individual resides at the time of application; and

            (b) National Sex Offender Public Registry. A name-based search of the
            Department of Justice (DOJ) National Sex Offender Public Registry (NSOPR).

45 CFR §2540.203, When must I conduct a State criminal registry check and a National Sex
Offender Public Web site check on an individual in a covered position?, states:

            (a) The State criminal registry check must be conducted on Foster Grandparents,
            Senior Companions, and AmeriCorps State and National participants and grant-
            funded staff with recurring access to children, persons age 60 or older, or
            individuals with disabilities, who enroll in, or are hired by, your program after
            November 23, 2007. For all other covered individuals, the State criminal registry
            check must be conducted on an individual who enrolls in, or is hired by, your
            program on or after October 1, 2009.

            (b) The National Sex Offender Public Web site check must be conducted on an
            individual who is serving, or applies to serve, as a Foster Grandparent, Senior
            Companion, or AmeriCorps State and National participant or grant-funded staff
            with recurring access to children, persons age 60 or older, or individuals with
            disabilities on or after November 23, 2007. For all other covered individuals, the
            National Sex Offender Public Web site check must be conducted on an individual
            who enrolls in, or is hired by, your program on or after October 1, 2009.

45 CFR §2540.205, What documentation must I maintain regarding a National Service Criminal
History Check for a covered position?, states:

            You must:

            (a) Document in writing that you verified the identity of the individual in a covered
            position by examining the individual's government-issued photo identification
            card, and that you conducted the required checks for the covered position; and



5
    See footnote 2 for discussion of the portion of living allowance we questioned related to member timekeeping deficiencies.
                                                                  11
       (b) Maintain the results of the National Service Criminal History check (unless
       precluded by State law) and document in writing that you considered the results
       in selecting the individual.

45 CFR § 2522.200, What are the eligibility requirements for an AmeriCorps Participant?, states
in part:

       (a) Eligibility. An AmeriCorps participant must ... (2)(i) Have a high school
       diploma or its equivalent; or (ii) Not have dropped out of elementary or secondary
       school to enroll as an AmeriCorps participant and must agree to obtain a high
       school diploma or its equivalent prior to using the education award; or (iii) Obtain
       a waiver from the Corporation of the requirements in paragraphs (a)(2)(i) and
       (a)(2)(ii) of this section based on an independent evaluation secured by the
       program demonstrating that the individual is not capable of obtaining a high
       school diploma or its equivalent; or (iv) Be enrolled in an institution of higher
       education on an ability to benefit basis and be considered eligible for funds under
       section 484 of the High Education Act of 1965 (20 U.S.C. 1091)...

       (b) Written declaration regarding high school diploma sufficient for enrollment.
       For purpose of enrollment, if an individual provides a written declaration under
       penalty of law that he or she meets the requirements in paragraph (a) of this
       section relating to high school education, a program need not obtain additional
       documentation of that fact.

During our audit, we identified other missing required documents and deficiencies from the
member files which related to member eligibility issues. These member files’ deficiencies
included: member contracts were signed by members after service hours were earned; lack of
member orientation records; lack of member fundraising monitoring; and no evidence tracking
member’s training. Since the ORI is no longer a Corporation grantee, we did not report ORI’s
compliance and internal control findings as we focused on audit issues which resulted in
questioned costs.

Recommendations

We recommend that the Corporation:

       4a. Disallow and recoup the questioned cost of $31,529;

       4b. Perform the following if ORI successfully applies for a Corporation’s grant in the
       future:

              Conduct a full financial capability assessment before awarding any funds;
              Consult with the OIG regarding ORI’s compliance and internal control findings.
               Any outstanding issues concerning these findings should be completed and
               adequate systems are in place that comply with Federal grant management
               requirements, OMB Circulars, and Corporation statutory and regulatory
               requirements; and
              Record the above requirements in the Corporation’s eGrants system.



                                               12
ORI’s Response

ORI disagreed with the finding, stating that ORI’s member eligibility documents were reviewed
and audited internally by ORI employees before members were accepted into the program. ORI
also stated that it requested technical assistance from the Corporation regarding required FBI
background checks for its members and it could not gain access to the FBI background checks
because the Corporation had not worked out coordination with the FBI. Also, logistical matters
with state offices created challenges in sending documents from different states and that OIG
auditors may have discounted non-original hard-to-read documents. ORI cited an unsourced
regulation which evidently pertains to citizenship eligibility requirements for the proposition that
the “Corporation does not require programs to make and retain copies of the actual documents
used to confirm age or citizenship eligibility requirements.” ORI requested the Corporation to
provide specific member names who allegedly had missing documents so that ORI could
relocate the documents. Finally, ORI requested clarification from the Corporation for those
documents that are required to be maintained in the member file. It claimed it used a standard
checklist to indicate the review and verification of all member eligibility documents.

OIG’s Comment

We provided ORI numerous opportunities and extended multiple deadlines to allow ORI to
prepare and gather supporting documents, including providing lists of specific members and the
documentation that was missing from their files. These deficiencies were previously brought to
ORI’s attention through the findings of State Commission monitoring reports. ORI was on notice
that its files were not adequate to demonstrate member eligibility, but did not resolve these
problems despite promises to do so. We did not reject or discount any “non-original hard-to-
read documents” related to our member eligibility testing.

ORI cited 45 CFR § 2522.200(c) for the proposition that grantees are not required to retain
member eligibility documents. That regulation, however, is limited to documentation relating to
verification of citizenship, which was not the subject of our findings. The applicable regulation is
45 CFR §2540.205, which clearly requires that documentation be maintained for AmeriCorps
members’ background checks. ORI’s response concerning the difficulty it encountered in
obtaining an FBI fingerprint check is not germane to the finding concerning the requirement that
to obtain and maintain results of a state criminal registry check and an NSOPR check. We also
noted that ORI did not address our finding regarding lack of evidence of members’ high school
diplomas.


Finding 5. Unallowable Service by a VISTA Member

We interviewed two VISTA members in order to understand their daily duties and
responsibilities. One VISTA member performed unallowable direct service, administrative
duties and activities that were inconsistent with those identified in the VISTA Assignment
Description (VAD). The VISTA member performed direct service that the member assisted at
the day care center and took care of children, while most of the time the VISTA member
performed administrative duties such as making copies, filing, data entry, etc. The work actually
performed by this VISTA member was different from the tasks specified in the VAD, including
the activity to “develop and implement centralized system for tracking of all relevant
organizational data ... in a way that is readily accessible to staff.”


                                                13
We noted that none of the member’s duties were associated with capacity building, which is
inconsistent with the VISTA program policy. VISTA members are prohibited from engaging in
direct services because direct services run counter to building capacity. Engagement in direct
services and non-capacity building activities represent mismanagement of VISTA resources. As
a result, we have questioned the entire VISTA member’s living allowance ($9,497) and
education award ($5,550) for a total cost of $15,047.

We also identified a high-level of turnover among ORI employees from various AmeriCorps
programs, which contributed to ORI’s lack of appropriate oversight of its VISTA program. For
example, one VISTA member believed ORI’s Chief Executive Officer (CEO) was his supervisor;
however, the member only communicated with the CEO’s assistant and the CEO did not speak
or provide guidance to the VISTA member.

According to the Guidelines for Selection of AmeriCorps *VISTA Sponsors and Projects, Part II.
Criteria for Selection of AmeriCorps Sponsors and Projects, Paragraph B.2.b. AmeriCorps
*VISTA sponsoring organizations are prohibited by law from “assigning AmeriCorps VISTAs to
activities which would otherwise be performed by employed workers.”

Recommendations

We recommend that the Corporation:

       5a. Disallow and recoup the questioned cost of $15,047;

       5b. Enhance control mechanisms to ensure that VISTA sponsors comply with laws,
           regulations, and policies. These should emphasize policies that delineate the
           requirements and expectations for VISTA recipients and outline the consequences
           of violating the program’s laws and regulations; and

       5c. Emphasize a proactive means by which VISTA members can communicate their
           concerns or report alleged prohibited services they have been assigned to engage
           in, such as direct service or non-VISTA related activities. This will enhance early
           intervention and detection of noncompliance.

ORI’s Response

ORI disagreed with the finding. ORI stated that the Corporation-approved VADs addressed its
organizational needs, and therefore disagreed with the assessment that VISTAs did not do what
the VADs authorized. ORI also disagreed that the VISTA member in question did not
understand who the supervisor was because the VISTA supervisors were ORI staff that
attended official VISTA supervisor training. ORI concurred it had a significant employee
turnover; however, ORI did not address the issue that the VISTA member performed direct
service at the day care center.

OIG’s Comment

Our finding was limited to a single VISTA member, whose actual work deviated from his VAD, in
that it consisted of direct services, which cannot be provided through VISTA. The contents of
the VAD and whether it was properly authorized are irrelevant. Had the VISTA member
conformed to the VAD, we would not have questioned these costs. As for the point about

                                             14
supervision, whatever ORI may have thought about who was supervising this work, the member
believed that his supervisor was ORI’s CEO, and that he was not receiving guidance.


Finding 6. Improper Accounting and Unsupported Program Income

We identified that ORI received program income in the form of service fees from its 36 host sites
for the placement of ORI sponsored AmeriCorps members. Upon review of ORI’s accounting
records and financial reports, ORI was unable to demonstrate and support any programmatic
use of this income. Specifically, we noted that members’ service fees collected from all host
sites were not recorded and reported as program income by ORI. ORI was also unable to show
how these AmeriCorps members’ service fees collected from 36 host sites were applied and
used towards its AmeriCorps programs, as required by 45 CFR § 2543.24(b).

By failing to demonstrate how it included the AmeriCorps members’ service fees to expand the
programs, ORI may have benefited by receiving funds which it was not entitled. As a result, we
have questioned all members’ service fees totaling $121,521 in Federal costs.

The following table provides details of questioned costs by program:

                                                         Questioned
                              Programs                 Federal Costs ($)
                             National Direct                12,889
                      AmeriCorps State – Louisiana          47,012
                      AmeriCorps State – Alabama             8,644
                       AmeriCorps State – Georgia           52,976
                               Total ($)                   121,521

45 CFR §2543.24 (b), Program Income, states:

       [P]rogram income earned during the project period shall be retained by the
       recipient and, in accordance with Federal awarding agency regulations or the
       terms and conditions of the award, shall be used in one or more of the ways
       listed in the following:

       (1) Added to funds committed to the project by the Federal awarding agency and
       recipient and used to further eligible project or program objectives.
       (2) Used to finance the non-Federal share of the project or program.
       (3) Deducted from the total project or program allowable costs in determining the
       net allowable costs on which the Federal share of costs is based.

Recommendations

We recommend that the Corporation:

       6a. Obtain supporting documentation from the ORI to demonstrate its appropriate use of
           the members’ service fee income towards programmatic funds; and

       6b. Instruct ORI to return the programmatic funds to the Corporation.


                                               15
ORI’s Response

ORI disagreed with the finding and stated that it used program income to support program
related activities. ORI stated if collected match fees were not properly documented, that was
the result of administrative errors that can be corrected. ORI also recommended that the
Corporation should work with it to provide documentation of how collected match funds were
used.

OIG’s Comment

ORI’s assurances that it used programmatic fees to pay for non-Federal costs not covered by
the grants is insufficient. The purpose of an audit is to determine whether such assertions are
supported by documentary evidence. ORI received advance written notice of the audit and had
numerous opportunities during and after audit fieldwork to provide supporting documentation.


                                    OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

The objectives of this audit were to determine whether: (1) ORI’s financial, grant, and program
management were compliant with the requirements of the grant, and (2) ORI’s AmeriCorps and
VISTA members, and the programs (including subrecipients) for grants awarded were compliant
with applicable laws, regulations, and grant provisions. We conducted our audit at our office in
Washington, DC between June 2011 and March 2012. We also conducted two on-site fieldwork
visits to ORI’s headquarters in New Orleans, LA during July 11 to 15, 2011 and September 12
to 13, 2011.

The scope of this audit included all of the Corporation’s grants held by ORI as either a direct
grantee or subgrantee for program years 2008-2009, 2009-2010, and 2010-2011. The following
table provides the details of grants and the related audit periods:

           Programs                 Grant Number                    Audit Period              Awarded Amount ($)
    National Direct Grant            08NDHLA001                   6/1/08 - 7/15/11                1,041,889
    Louisiana State Grant            09ACHLA001                   7/8/10 - 7/15/11                  430,171
    Alabama State Grant            09ACHAL0010003                 6/11/10 - 7/15/11                 280,757
    Georgia State Grant            06AFHGA001004                   6/1/10 - 7/15/11                 514,585
    Learn & Serve Grant              10LSWLA002                    5/1/10 - 4/30/11                 200,000
    VISTA Grant                      08VSWLA004                   7/16/09 - 9/15/11                   - 6

With the exception of its VISTA grant, ORI no longer has any grants with the Corporation.
Because ORI is no longer a grantee with the Corporation, we adjusted our audit scope to solely
focus on the findings resulting in questioned costs. Therefore, we did not report on ORI’s
compliance and internal control findings in this audit report.

6
 Standard VISTA grant awards do not provide monetary resources to the VISTA sponsor. If a sponsor is awarded a standard VISTA
grant, the Corporation provides support for VISTA members approved in the memorandum of agreement with the sponsor.
                                                            16
During our audit, we performed the following key audit procedures:

     Conducted a risk assessment of ORI’s internal controls by corroborating results from the
      following sources:

         o   ORI’s 2008 and 2009 OMB Circular A-133 audit (Single Audit) reports;
         o   Sub-monitoring reports conducted by the Corporation as well as Alabama, Georgia,
             and Louisiana State Commissions;
         o   Various grant reports (grant applications, budget, grant history report) generated
             from the Corporation’s grant information systems, including MyAmeriCorps Portal
             and eGrants;

     Inquired and requested documents from the Corporation, ORI, as well as Alabama, Georgia,
      and Louisiana State Commissions;

     Reviewed policies, procedures, laws and regulations related to the operation of AmeriCorps
      programs, as well as the policies and procedures practiced by ORI with regards to their
      internal controls over their program compliance;

     Evaluated ORI’s financial management system and its Federal financial reports in
      compliance with the AmeriCorps financial reporting regulations;

     Interviewed AmeriCorps members and supervisors to understand their duties and activities;

     Tested transactions regarding its allowable activities of its direct costs;

     Reviewed ORI staff and AmeriCorps member timesheets for adequate support, and proper
      approval;

     Reviewed AmeriCorps member files to ensure member eligibility to participate in
      AmeriCorps programs; and

     Analyzed ORI’s program income over compliance with its match requirements and allowable
      use.

We judgmentally selected samples during our audit for our AmeriCorps members, ORI staff, and
transaction testing. Our sample sizes were based on the following data we obtained:

        Testing Area         Sample Size    Basis of Sample Size
    AmeriCorps Member             50        Total number of AmeriCorps members by program
    Timesheets Review
    AmeriCorps Member             50        Total number of AmeriCorps members by program
    Files Review
    AmeriCorps Member              4        Judgmentally selected AmeriCorps members
    Interviews
    VISTA Member                   2        Total number of VISTA members
    Interviews
    ORI Staff Timesheet           15        Total number of ORI staff and their work titles
    Review
    Transaction Testing           52        Federal Financial Reports
                                                    17
Below is a table to show the sample size, by program, used for our AmeriCorps members and
expense transaction testing:

                                                                         Total               Members              Transactions
          Programs                     Grant Number                     Members              Selected               Selected
    National Direct Grant               08NDHLA001                        158                   21                     22
    Louisiana State Grant               09ACHLA001                         27                    3                      8
    Alabama State Grant               09ACHAL0010003                       51                    6                      8
    Georgia State Grant               06AFHGA001004                        92                   10                      3
    Learn & Serve Grant                 10LSWLA002                        323                   10                     11
                                           Total                          651                   50                     52


                                                           BACKGROUND

ORI was established in 1999 as a non-profit organization to assist schools, foundations, and
other community organizations with technical management resources and programs that help
youth and families obtain academic success through educational enhancement programs and
learning. ORI’s mission is to engage children, youth, and families through community-based
learning opportunities.

ORI created the Gulfsouth Youth Action Corps (GYAC) following Hurricanes Katrina and Rita to
address the shortage of quality out-of-school-time activities for at-risk school-age children in the
Greater New Orleans area. ORI first began receiving grant funds from the Corporation in
February 2007 through Louisiana State Commission to support GYAC. Since February 2007,
ORI has received more than $3 million funding from the Corporation through Learn & Serve,
AmeriCorps National Direct, and State grants to support the work of the GYAC in Louisiana,
Alabama and Georgia. In addition, ORI became a sponsoring agency for VISTA members in
2008. ORI also obtained funding from private foundations, including the Kellogg Foundation
and the Foundation for the Mid South. While a portion of these funds from private foundations
were used toward the State grant match, a portion of these funds were designated as cost
share for the National Direct grant as well as covering other operating expenses for the
organization that were not directly related to the GYAC.

In the most recent ORI 2009 single audit report issued on September 27, 2010, the OMB
Circular A-133 auditor noted the following two material weaknesses7 of ORI’s internal control
over financial reporting and one significant deficiency8 of ORI's internal control over compliance
and Federal compliance:

     Untimely Submission of Audit Report (material weakness): ORI did not submit its December
      31, 2009 audited financial statements within the prescribed timeframes;

     Financial Management System (material weakness): ORI did not adhere to accounting
      procedures to ensure that accounting records were properly maintained or that the

7
  Per Statement on Auditing Standards (SAS) No. 115, Communicating Internal Control Related Matters Identified in an Audit, a
material weakness is a deficiency, or combination of deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the entity's financial statements will not be prevented, or detected and corrected on a timely basis.
8
  Per SAS No. 115, a significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.
                                                                   18
              Appendix A


   Details of Unallowable, Unallocable,
and Unsupported Costs Charged to Grants
Sample               Program    Claimed                 Questioned    Questioned
         Program                           Exceptions                                               Notes
  #                    Year    Amount($)                Federal ($)    Match ($)
                                                                                   Lack of valuation support for in-kind
                                                                                   services; Incorrect reporting of in-kind
                                                                                   rent match on general ledger: March
  1      Alabama      2011       1,700       E2, E4          -           640
                                                                                   2011 in-kind rent match per Periodic
                                                                                   Expense Report (PER) was $640 while
                                                                                   general ledger was $1,700.
                                                                                   Incorrectly recorded as Federal expense
  2      Alabama      2011        220         E2             -           220
                                                                                   on general ledger.
                                                                                   Incorrectly recorded as Federal expense
  3      Alabama      2011      485.98        E2             -          485.98
                                                                                   on general ledger.
                                                                                   Lack of valuation support for in-kind
                                                                                   services; Incorrect reporting of in-kind
                                                                                   labor (site supervisor) on general ledger:
  4      Alabama      2011      1,463.5      E2, E4          -          1,475
                                                                                   December 2011 in-kind labor per PER
                                                                                   was $1,475 while general ledger was
                                                                                   $1,463.5.
                                                                                   Incorrectly recorded as Federal expense
  5      Alabama      2011      861.76        E2          861.76          -
                                                                                   on general ledger.
                                                                                   Lack of valuation support for in-kind
                                                                                   services; Incorrect reporting of in-kind
  6      Alabama      2011       1,800       E2, E4          -           640       rent match on general ledger: March
                                                                                   2011 in-kind rent match per PER was
                                                                                   $640 while general ledger was $1,800.
                                                                                   Lack of valuation support for in-kind
  7      Alabama      2011      10,916       E2, E4          -          10,916     services; Incorrect reporting of match as
                                                                                   in-kind.
                                                                                   Lack of payment receipt for conference
  8      Alabama      2011       1,500        E1             -          1,500
                                                                                   registration.
                                                                                   Incorrectly recorded as Federal expense
  9      Louisiana    2011      278.96        E2             -          278.96
                                                                                   on general ledger.
                                                                                   The general ledger entry was a reversal
                                                                                   for an overpayment. However, per review
  10     Louisiana    2011      1,058.16      E2         1,058.16         -        of the PER, no reversal was made to the
                                                                                   reimbursement. Therefore, the PER was
                                                                                   overstated by $1,058.16.
                                                                                   Incorrect reporting of direct costs in the
                                                                                   general ledger: November 2011 indirect
  11     Louisiana    2011      1,209.93      E2           112            -
                                                                                   cost per PER was $1,322 while indirect
                                                                                   cost per general ledger was $1,210.
                                                                                   Incorrect reporting of member stipend
  12     Louisiana    2011      4,700.8       E2          4,700.8         -
                                                                                   costs on PER.
                                                                                   Incorrect reporting of member stipend
  13     Louisiana    2011      448.19        E2          448.19          -
                                                                                   costs on PER.
                                                                                   Lack of valuation support, beyond an
  14     Louisiana    2011       2,500        E4             -          2,500
                                                                                   invoice, for in-kind services.
                                                                                   Lack of valuation support, beyond an
  15     Louisiana    2011      78,365        E4             -          78,365
                                                                                   invoice, for in-kind services.
                                                                                   Custodial expense was not allowable per
  16     Louisiana    2011        100         E3           100            -
                                                                                   budget narrative.
         Learn &                                                                   Incorrectly account expenses for
  17                  2010      9,523.67      E2         9,523.67         -
          Serve                                                                    5/14/2010 drawdown.
                                                                                   General ledger incorrectly recorded
                                                                                   supplies expenses for the drawdown on
         Learn &
  18                  2010      4,122.71     E2,E3       4,122.71         -        6/15/10;
          Serve
                                                                                   Uniform expenses were not allowable per
                                                                                   budget narrative.
Sample              Program    Claimed                 Questioned    Questioned
         Program                          Exceptions                                               Notes
  #                   Year    Amount($)                Federal ($)    Match ($)
                                                                                  Lack of contract agreement stating scope
                                                                                  and purpose of services;
         Learn &
  19                 2010       5,750       E1, E2        5,750          -        General ledger incorrectly recorded
          Serve
                                                                                  supplies expenses for the drawdown on
                                                                                  6/25/10.
                                                                                  Lack of contract agreement stating scope
                                                                                  and purpose of services;
         Learn &
  21                 2010       1,750       E1, E2        1,750          -        General ledger incorrectly recorded
          Serve
                                                                                  supplies expenses for the drawdown on
                                                                                  7/9/10.
         Learn &                                                                  Lack of supporting documentation to
  22                 2010        800         E1           800            -
          Serve                                                                   validate purchase of supplies.
         Learn &                                                                  Lack of contract agreement stating scope
  24                 2010       1,500        E1           1,500          -
          Serve                                                                   and purpose of services.
                                                                                  Lack of contract agreement stating scope
                                                                                  and purpose of services;
         Learn &
  25                 2010      32,408.5     E1, E2      32,408.5         -        General ledger incorrectly recorded
          Serve
                                                                                  contract expenses for all July 2010
                                                                                  drawdowns.
                                                                                  Lack of contract agreement stating scope
                                                                                  and purpose of services;
         Learn &
  26                 2010      32,703.5     E1, E2      32,703.5         -        General ledger incorrectly recorded
          Serve
                                                                                  contract expenses for all June 2010
                                                                                  drawdowns.
                                                                                  Lack of support to validate the salary
         National                                                                 expense;
  30                 2009        90         E1, E2         90            -
          Direct                                                                  Expense was excluded from the
                                                                                  drawdown report.
                                                                                  Lack of support to validate the salary
                                                                                  expense;
         National                                                                 Expense was excluded from the
  31                 2009        90       E1, E2, E3        -           90
          Direct                                                                  drawdown report;
                                                                                  Travel expenses were improperly coded
                                                                                  to Federal expenses.
                                                                                  Lack of support to validate the expense;
         National
  33                 2009        229        E1, E2        229            -        Expense was excluded from the
          Direct
                                                                                  drawdown report.
                                                                                  Lack of support to validate the expense;
                                                                                  Expense was excluded from the
         National
  34                 2009        330      E1, E2, E3      330            -        drawdown report;
          Direct
                                                                                  Expenses were improperly coded to
                                                                                  Federal expenses.
                                                                                  Lack of support to validate the expense;
         National
  35                 2009        200        E1, E2        200            -        Expense was excluded from the
          Direct
                                                                                  drawdown report.
                                                                                  Expense was excluded from the
         National                                                                 drawdown report;
  36                 2009      573.33       E2, E3          -          573.33
          Direct                                                                  Expenses were improperly coded to
                                                                                  Federal expenses.
         National                                                                 Expense was excluded from the
  37                 2009      209.35        E2          209.35          -
          Direct                                                                  drawdown report.

         National                                                                 Expense was excluded from the
  38                 2010       5,000        E2           5,000          -
          Direct                                                                  drawdown report.
 Sample                  Program      Claimed                     Questioned      Questioned
            Program                                Exceptions                                                        Notes
   #                       Year      Amount($)                    Federal ($)      Match ($)

                                                                                                 Expense was excluded from the
             National                                                                            drawdown report;
    39                     2010        773.78         E2, E3            -            773.78
              Direct                                                                             Expenses were improperly coded to
                                                                                                 Federal expenses.
                                                                                                 Expense was excluded from the
             National                                                                            drawdown report;
    40                     2010      24,109.05        E2, E3        24,109.05           -
              Direct                                                                             Expenses were improperly coded to
                                                                                                 Federal expenses.
                                                                                                 No support was provided for employee’s
             National
    41                     2010      151,623.34     E1, E2, E3        7,000             -        salaries and hours associated with the
              Direct
                                                                                                 journal entry.
                                                                                                 No valuation support, beyond an invoice,
                                                                                                 for in-kind services;
                                                                                                 No supporting documentation to
             National
    42                     2010          525        E2, E3, E4          -             525        determine the match expenses;
              Direct
                                                                                                 Expenses were improperly coded as
                                                                                                 Federal expenses while no funds were
                                                                                                 drawdown.
                                                                                                 No valuation support, beyond an invoice,
             National                                                                            for in-kind services;
    43                     2010         2,000         E2, E4            -            2,000
              Direct                                                                             No supporting documentation to
                                                                                                 determine the match expenses.
                                                                                                 No support was provided for employee’s
                                                                                                 salaries and hours associated with the
             National
    44                     2010       1,538.46        E1, E2            -           1,538.46     journal entry;
              Direct
                                                                                                 No supporting documentation to
                                                                                                 determine the match expenses.
                                                                                                 Expense was excluded from the
             National                                                                            drawdown report;
    45                     2010         364.8         E2, E3            -            364.8
              Direct                                                                             Expenses were improperly coded to
                                                                                                 Federal expenses.
                                                                                                 Salary expense for the Director of
             National                                                                            Programs is a match expense per the
    46                     2010         1,200           E3            1,200             -
              Direct                                                                             budget narrative. However, the amount
                                                                                                 was improperly drawdown on 6/25/10.
             National                                                                            No valuation support, beyond an invoice,
    47                     2011         3,000         E2, E4            -            3,000
              Direct                                                                             for in-kind services.
                                                                                                 No valuation support, beyond an invoice,
    49       Georgia       2011        31,880         E2, E4            -            31,880
                                                                                                 for in-kind services.
                                                                                                 No valuation support, beyond an invoice,
                                                                                                 for in-kind services;
    50       Georgia       2011        53,812         E2, E4            -            33,956      PER identified only $33,596 as the
                                                                                                 recorded match expenses for January
                                                                                                 and February 2010.
                                                                                                 No valuation support, beyond an invoice,
    51       Georgia       2011        36,540           E4              -            36,540
                                                                                                 for in-kind services.
                                                                                                 No valuation support, beyond an invoice,
    52       Georgia       2011         7,000           E4              -            7,000
                                                                                                 for in-kind services.
                                                     Total ($)     134,206.69     215,262.31

Keys to Exception:
E1: Lack of supporting documentation to validate transactions and grant costs
E2: Improper allocation of program expenses to the appropriate grant
E3: Unallowable expenses were charged to the grants
E4: Insufficient documentation to support the fair market value of the reported in-kind labor and rent match costs
                Appendix B


Details of Questioned Employee Payroll Costs
Program Year 2010 Questioned Federal Costs

                                Questioned
 Sample    Program      Key     Federal ($)                                              Notes
                                              Missing employee timesheet and therefore we questioned all work hours based on payroll register
    6      Alabama       E2       1,538.46    record.

                                              Only 49.25 hours were supported by the September 2010 timesheets. Questioned 30.75 hours from
    6      Alabama       E3        591.35     payroll register that were not supported by timesheets.
                                              Missing employee timesheet and therefore we questioned all work hours based on payroll register
    8      Louisiana     E2       1,230.77    record.

                                              Only 40 hours were supported by the September 2010 timesheets.         Questioned 40 hours from
    8      Louisiana     E3        615.39     payroll register that were not supported by timesheets.

            National                          Per employee timesheet, only 15.25 hours worked (total hours recorded per payroll register was
    9        Direct      E3         984       166.5) for the program from 10/1/10 to 10/15/10 representing $216. Questioned the rest of pay.
            National                          Per employee timesheet, only 64.5 hours worked (total hours recorded per payroll register was
    9        Direct      E3         264       166.5) for the program from 10/16/10 to 10/30/10 representing $936. Questioned the rest of pay.
            National                          Per employee timesheet, only 26 hours worked (total hours recorded per payroll register was 199.25)
    9        Direct      E3         888       for the program from 11/1/10 to 11/12/10 representing $312. Questioned the rest of pay.
            National                          Per employee timesheet, only 12 hours worked (total hours recorded per payroll register was 199.25)
    9        Direct      E3        2,255      for the program from 11/13/10 to 11/30/10 representing $145. Questioned the rest of pay.

            National                          Per employee timesheet, only 16.25 hours worked (total hours recorded per payroll register was
    9        Direct      E3        2,192      187.75) for the program from 12/1/10 to 12/10/10 representing $208. Questioned the rest of pay.

            National                          Per employee timesheet, only 15.5 hours worked (total hours recorded per payroll register was
    9        Direct      E3         234       187.5) for the program from 12/11/10 to 12/31/10 representing $198. Questioned the rest of pay.
                                              Employee charged work hours on timesheets for program that were not assigned to base on budget
    9      Louisiana     E1         600       narratives. Questioned entire pay.
                                              Employee charged work hours on timesheets for program that were not assigned to base on budget
    9      Alabama       E1         600       narratives. Questioned entire pay.
                                              Employee charged work hours on timesheets for program that were not assigned to base on budget
    9       Georgia      E1         600       narratives. Questioned entire pay.
            Learn &                           Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Serve       E1        576.92     narratives. Questioned entire pay.
            National                          Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Direct      E1        336.54     narratives. Questioned entire pay.
            Learn &                           Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Serve       E1        240.38     narratives. Questioned entire pay.
            Learn &                           Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Serve       E1        240.38     narratives. Questioned entire pay.
            National                          Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Direct      E1        336.54     narratives. Questioned entire pay.
            Learn &                           Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Serve       E1        240.38     narratives. Questioned entire pay.
            National                          Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Direct      E1        336.54     narratives. Questioned entire pay.
            Learn &                           Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Serve       E1        240.38     narratives. Questioned entire pay.
            National                          Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Direct      E1        304.54     narratives. Questioned entire pay.
            National                          Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Direct      E1        220.54     narratives. Questioned entire pay.
            Learn &                           Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Serve       E1        240.38     narratives. Questioned entire pay.
            National                          Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Direct      E1       1,782.08    narratives. Questioned entire pay.
            National                          Employee charged work hours on timesheets for program that were not assigned to base on budget
   10        Direct      E1       1,205.24    narratives. Questioned entire pay.
                                Questioned
 Sample    Program      Key     Federal ($)                                                 Notes

            Learn &                           Employees charged work hours on timesheets for programs and/or projects that they were not
   11        Serve       E1          129.23   assigned to base on budget narratives. Questioned entire pay.
            Learn &                           Employees charged work hours on timesheets for programs and/or projects that they were not
   11        Serve       E1          258.46   assigned to base on budget narratives. Questioned entire pay.

            Learn &                           Employees charged work hours on timesheets for programs and/or projects that they were not
   11        Serve       E1          258.46   assigned to base on budget narratives. Questioned entire pay.

            Learn &                           Employees charged work hours on timesheets for programs and/or projects that they were not
   11        Serve       E1          258.46   assigned to base on budget narratives. Questioned entire pay.

            Learn &                           Employees charged work hours on timesheets for programs and/or projects that they were not
   11        Serve       E1          258.46   assigned to base on budget narratives. Questioned entire pay.

            Learn &                           Employees charged work hours on timesheets for programs and/or projects that they were not
   11        Serve       E1          258.46   assigned to base on budget narratives. Questioned entire pay.
                        Total
                         ($)     20,315.33



Program Year 2010 Questioned Match

                                Questioned
 Sample    Program      Key      Match ($)                                                 Notes
            National                          Per employee timesheet, only 30.5 hours worked under the program match from 12/11/10 to
    9        Direct      E3          147.6    12/31/10. Employee was not budgeted to this grant's match funds. Questioned entire pay.
                                              Per employee timesheet, only 4.5 hours worked under the program match from 12/11/10 to
    9      Louisiana     E3          239.6    12/31/10. No personnel match funds were budgeted under this grant. Questioned entire pay.
                                              Per employee timesheet, only 25.25 hours worked under the program match from 12/11/10 to
    9      Alabama       E3            61     12/31/10. No personnel match funds were budgeted under this grant. Questioned entire pay.
                                              Per employee timesheet, only 25.25 hours worked under the program match from 12/11/10 to
    9       Georgia      E3          262.8    12/31/10. No personnel match funds were budgeted under this grant. Questioned entire pay.
                        Total
                         ($)          711



Program Year 2011 Questioned Federal Costs

                                Questioned
 Sample    Program      Key     Federal ($)                                                Notes
            Learn &                           Employees charged work hours on timesheets for programs and/or projects that they were not
   2         Serve      E1       1,153.85     assigned to base on budget narratives. Questioned entire pay.
                                              Missing employee timesheet and therefore we questioned all work hours based on payroll register
   2        Georgia     E2       1,153.85     record.

   3        Georgia     E3       1,015.08     Per employee timesheet, no hours worked between 1/16/11 to 1/26/11. Questioned entire pay.

   3        Georgia     E1       1,538.46     Missing employee timesheet and questioned all work hours based on payroll register record.

                                              Missing employee timesheet for July 2011 representing 44.25 unsupported work hours in which we
   5       Alabama      E2        585.04      questioned these unsupported work hours.

                                              Missing employee timesheet for July 2011 representing 53.75 unsupported work hours in which we
   6       Alabama      E2       1,033.65     questioned these unsupported work hours.

                                              Missing employee timesheet after 1/24/11 representing 65 unsupported work hours in which we
   8       Louisiana    E2           1,000    questioned these unsupported work hours.

           National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
   9        Direct      E1           432      worked during the time reporting period.

           National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
   9        Direct      E1           2,400    worked during the time reporting period.
                              Questioned
Sample   Program      Key     Federal ($)                                                Notes
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1        2,400       worked during the time reporting period.
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1        2,400       worked during the time reporting period.
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1        2,400       worked during the time reporting period.
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1        2,400       worked during the time reporting period.
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1        2,400       worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1        2,400       worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1       2,692.31     worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1       2,692.31     worked during the time reporting period.
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1        484.62      worked during the time reporting period.
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1       2,692.31     worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct      E1       2,692.31     worked during the time reporting period.
                                            Missing employee timesheet for July 2011 timesheet;
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  9       Direct     E1, E2    2,692.31     worked during the time reporting period.
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  10      Direct      E1        317.31      worked during the time reporting period.
         National
  10      Direct      E2        961.60      Missing employee timesheet and questioned all work hours based on payroll register record.

  11     Louisiana    E2        538.80      Missing employee timesheet and questioned all work hours based on payroll register record.
         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  15      Direct      E1        865.39      worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  15      Direct      E1        865.39      worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  15      Direct      E1        779.04      worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  15      Direct      E1        865.39      worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  15      Direct      E1        865.39      worked during the time reporting period.

                                            Per employee timesheet, only 37 hours worked (total hours recorded per payroll register was 90.5)
  15     Louisiana    E3        158.38      under the program for pay period ending 4/15/11 representing $707. Questioned the rest of pay.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  15      Direct      E1        865.39      worked during the time reporting period.

         National                           Per budget narrative, employee was not budgeted to the specific program. Questioned all hours
  15      Direct      E1        865.39      worked during the time reporting period.
                     Total
                      ($)      46,605.57
Program Year 2011 Questioned Match

                               Questioned
 Sample    Program     Key      Match ($)                                                Notes

           National                          Per employee timesheet, only 23.25 hours worked under the program match from pay period
   9        Direct      E3           537.6   ending 1/13/11. No personnel match funds were budgeted under the grant. Questioned entire pay.
                                             Per employee timesheet, only 27 hours worked under the program match from pay period ending
   9       Georgia      E3           748.8   1/13/11. No personnel match funds were budgeted under the grant. Questioned entire pay.
                                             Per employee timesheet, only 18 hours worked under the program match from pay period ending
   9       Louisiana    E3           297.6   1/13/11. No personnel match funds were budgeted under the grant. Questioned entire pay.

                                             Per employee timesheet, only 18 hours worked under the program match from pay period ending
   9       Alabama      E3           384     1/13/11. No personnel match funds were budgeted under the grant. Questioned entire pay.
                                             Per employee timesheet, only 9 hours worked under the program match from pay period ending
   9       Alabama      E3       430.76      6/10/11. No personnel match funds were budgeted under the grant. Questioned entire pay.

           National                          Per employee timesheet, only 21 hours worked under the program match from pay period ending
   9        Direct      E3       603.08      6/10/11. No personnel match funds were budgeted under the grant. Questioned entire pay.
                                             Per employee timesheet, only 9 hours worked under the program match from pay period ending
   9       Louisiana    E3       333.85      6/10/11. No personnel match funds were budgeted under the grant. Questioned entire pay.
                                             Per employee timesheet, only 19 hours worked under the program match from pay period ending
   9       Georgia      E3           840     6/10/11. No personnel match funds were budgeted under the grant. Questioned entire pay.

                                             Per employee timesheet, only 18 hours worked under the program match from pay period ending
   10      Louisiana    E3       259.61      1/13/11. No personnel match funds were budgeted under the grant. Questioned entire pay.
           National                          Per budget narrative and ORI’s budget worksheet, employee was not budgeted to the specific
   14       Direct      E1       865.38      program. Questioned all hours worked during the time reporting period.
           National                          Per budget narrative and ORI’s budget worksheet, employee was not budgeted to the specific
   14       Direct      E1       865.38      program. Questioned all hours worked during the time reporting period.
           National                          Per budget narrative and ORI’s budget worksheet, employee was not budgeted to the specific
   14       Direct      E1       865.38      program. Questioned all hours worked during the time reporting period.
           National                          Per budget narrative and ORI’s budget worksheet, employee was not budgeted to the specific
   14       Direct      E1       821.94      program. Questioned all hours worked during the time reporting period.
           National                          Per budget narrative and ORI’s budget worksheet, employee was not budgeted to the specific
   14       Direct      E1       865.38      program. Questioned all hours worked during the time reporting period.
           National                          Per budget narrative and ORI’s budget worksheet, employee was not budgeted to the specific
   14       Direct      E1       865.38      program. Questioned all hours worked during the time reporting period.
           National                          Per budget narrative and ORI’s budget worksheet, employee was not budgeted to the specific
   14       Direct      E1       865.38      program. Questioned all hours worked during the time reporting period.
           National                          Per budget narrative and ORI’s budget worksheet, employee was not budgeted to the specific
   14       Direct      E1       865.38      program. Questioned all hours worked during the time reporting period.
                       Total
                        ($)     11,314.9



  Keys
  E1: Employees charged work hours on timesheets for programs and/or projects that they were not assigned to base on budget
       narratives
  E2: Missing employee timesheets
  E3: Employee timesheets did not support work hours recorded on employee payroll register and recorded on the FFR
                 Appendix C


Details of Questioned Member Timekeeping Costs
 Sample     Program      Program      Service    Hours       Exceptions    Questioned       Questioned      Questioned     Questioned
                           Year        Type      Served                      Hours          Benefits ($)       Living      Education
                                                                                                           Allowance ($)    Award ($)
    1        National      2009        FT           1,704     E1, E2, E3      809             279.66          2,833.22        4,725
    2        National      2009        HT           1,054         E1          920             313.07           3,333.2       2,362.5
    3        National      2009        QT            476      E1, E2, E3     28.25             126.6            1,200         1,250
    4        National      2009        QT            450      E1, E2, E3      51.5               96              800          1,250
    5        National      2009        QT            501     E1,E2,E3,E4     35.75             126.6            1,200         1,250
    6        National      2009        QT            455      E1, E2, E3    107.25               96              800          1,250
    7        National      2009        QT            450          E2         53.75              65.4             400          1,250
    9        National      2010        QT            302          E1          223              90.84             960          1,250
   10        National      2010        QT            493       E1, E3         431              90.84             960          1,250
   11        National      2010        HT            900          E1          900             376.82           4,166.5        2,675
   12        National      2010        HT            916          E1          916             364.07          3,999.84       2,362.5
   13        National      2010        QT            450          E1          157              57.87             480          1,250
   14        National      2010        QT            468          E1          364              90.84             960          1,250
   15        National      2009        HT            906          E1          906             368.91          3,999.84       2,362.5
   16        National      2009        HT            902          E1          902             380.37          4,333.16       2,362.5
   17        National      2009        FT           1,700      E1, E3       1,310.5           869.55            9,025         4,725
   18        National      2009        FT           2,032         E1         1,549            869.55            9,025         4,725
   19        National      2009        FT           1,700         E1        1,258.5           555.52          4,919.99        4,725
   20        National      2009        FT           2,074         E1         2,074           1,081.84          11,800         4,725
   21        National      2010        FT           1,133         E1        461.25            660.08          6,391.67         NA2
   22       Alabama        2010        FT           1,700      E1, E2       1,688.5          1,073.82          11,800         5,350
   23       Alabama        2010        FT           1,701         E1         1,701           1,073.82          11,800         6,419
   24       Alabama        2010        HT            108          E1          108             191.96            1,725          NA2
   25       Alabama        2010        FT            351          E1          351             584.86          5,408.33         NA2
   26       Alabama        2010        FT           1,784         E1         1,784             962.7           11,800         5,350
   27       Alabama        2010        HT            289          E1          289             376.71            4,140          NA2
   28       Alabama        2010        HT            637      E1, E2, E3     555.5            457.76          3,933.28         NA2
   29        Georgia       2010        FT           1,709         E1         947.5            584.86          5,408.33        5,350
   30        Georgia       2010        FT           1,700         E1          951             622.47            5,900         6,503
   31        Georgia       2010        FT            409          E1          176             472.02          3,933.33         NA2
   32        Georgia       2010        HT            949          E1         797.5            337.12           3,622.5        2,675
   33        Georgia       2010        HT            905          E1          800             231.55           2,242.5        2,675
   34        Georgia       2010        HT            634          E1          427             205.16           1,897.5         NA2
   35        Georgia       2010        HT            936          E1          887             363.51           3,967.5        2,675
   36        Georgia       2010        HT            411          E1         375.5            279.26          2,866.14         NA2
   37        Georgia       2010        FT           1,711         E1         1,528           1,073.82          11,800         5,350
   38        Georgia       2010        HT            569          E1          531             284.34           2,932.5         NA2
   39       Louisiana      2010        FT            835          E1          813              697.7          6,883.33         NA2
   40       Louisiana      2010        HT            538          E1          476             310.73           3,277.5         NA2
   41       Louisiana      2010        HT            159          E1         141.5            191.96            1,725          NA2
   42         L&S          2010        NA1           168      E1, E2, E3      168               NA1              NA1           500
   43         L&S          2010        NA1           100      E1, E2, E3      100               NA1              NA1           500
   44         L&S          2010        NA1           100      E1, E2, E3      100               NA1              NA1           500
   45         L&S          2010        NA1           100      E1, E2, E3      100               NA1              NA1           500
   46         L&S          2010        NA1           102      E1, E2, E3      102               NA1              NA1           500
   47         L&S          2010        NA1           102      E1, E2, E3      102               NA1              NA1           500
   48         L&S          2010        NA1           100      E1, E2, E3      100               NA1              NA1           500
   49         L&S          2010        NA1           100      E1, E2, E3      100               NA1              NA1           500
   50         L&S          2010        NA1           160      E1, E2, E3      160               NA1              NA1           500
   51         L&S          2010        NA1           100      E1, E2, E3      100               NA1              NA1           500
                                                                Total      29,917.75         17,336.56      178,650.16       94,347
Note: Sample 8 was replaced by Sample 51.
NA1: Under the Learn & Serve provisions, summer campers were not provided living allowances, but they were given an education award of
       $500 after 100 hours of service. There were no living allowances provided to these members.
NA2: Members did not complete their terms and we verified from eSPAN that members did not receive education awards.

Keys to Exceptions
E1:    No member timesheet provided
E2:    Missing member/supervisor signature
E3:    Timesheets reviewed prior to last day in pay period
E4:    Recorded time was not segregated by project

Keys to Service Type
FT:    Full time              HT:       Half Time                    QT:     Quarter Time
                  Appendix D


Details of Questioned Member Ineligibility Costs
                            Missing          Missing Criminal                          Less: Living       Total Remaining
 Member                   High School        History Checks /          Living           Allowance           Questioned
 Sample                     Diploma          NSOPR Checks            Allowance           Already               Living
    #        Program     Documentation       Documentation            Paid ($)        Presented ($) *      Allowance ($)
    3         National                               X                  1,200              1,200                  -
    4         National           X                  X                   1,200               800                  400
    5         National           X                   X                  1,200              1,200                  -
    6         National                              X                   1,200               800                  400
    7         National           X                  X                   1,200               400                  800
   10         National           X                                      1,200               960                  240
   17         National                               X                 11,800              9,025                2,775
   18         National                               X                 11,800              9,025                2,775
   19         National           X                   X                 11,800            4,919.99             6,880.01
   20         National           X                   X                 11,800             11,800                  -
   21         National                               X                 11,800            6,391.67             5,408.33
   22        Alabama             X                                     11,800             11,800                  -
   23        Alabama                                 X                 11,800             11,800                  -
   24        Alabama                                 X                  4,140              1,725                2,415
   27        Alabama                                 X                  4,140              4,140                  -
   28        Alabama             X                                      4,140            3,933.28              206.72
   34         Georgia            X                                      4,140             1,897.5              2,242.5
   37         Georgia                                X                 11,800             11,800                  -
   38         Georgia            X                                      4,140             2,932.5              1,207.5
   39        Louisiana           X                                     11,800            6,883.33             4,916.67
    40       Louisiana                               X                 4,140              3,277.5               862.5
                                                      Total ($)       138,240             106,711              31,529



* This column “Less: Living Allowance Already Presented” refers to the member’s living allowance questioned as part of our
  “Member Timekeeping Deficiencies” finding. Refer to Appendix C for details.
                  Appendix E


Operation REACH, Inc.’s Response to Draft Report
                                               Operation REACH Inc. OIG Response          1




August 9, 2012


Attn: Stuart Axenfeld
Office Of Inspector General
Corporation for National and Community Service
1201 New York Ave, NW
Suite 830
Washington, DC 20525


Dear Mr. Stuart Axenfeld:

Please find attached a response to the audit conducted on Operation REACH Inc.. We look
forward to feedback and resolution of any unresolved matters.

If you have further questions, then please contact our office at (504) 529-1922.

Sincerely,



Kyshun Webster,Sr. Ph.D.
Founder
                                               Operation REACH Inc. OIG Response                2




                      RESPONSE TO OIG AUDIT FINDINGS

Disclaimer- The staff persons associated with this project are no longer employed by Operation
REACH Inc. Moreover, the Chief Compliance Officer, Nicole Payne-Jack was the authorizer on
E-grants, the Payment Management System and was primarily responsible for submission of all
PERS, FFR and FSR in conjunction with the Americorps grants. The Chief Compliance Officer
was the lead for coordinating samples for the Americorps program and fiscal audits in
conjunction with ORI’s retained accountant.

Foreword- While overall, ORI agree with some of the observation of weak infrastructure
commented on in the OIG report, please consider the overall context in which the grants were
awarded to this indigenous New Orleans-based organization, amidst a backdrop of post
Hurricanes Katrina and Rita. We respond accordingly given this context to the findings and
recommendations of the OIG. Like most, this organization was rebuilding itself, while also
extending itself to help other youth-serving organizations rebuild and restore program
infrastructure for youth affected by the worst national natural disaster in U.S. history.
Additionally, the organization had launched the Gulfsouth Youth Action Corps independent of
any Americorps funds in 2006, with private sources of funding.

Finding 1 Unallowable, Unallocable and Unsupported Charged to Grants
ORI Response:
We disagree with this finding. ORI relied on its 39 partner sites to pledge in-kind contributions
and to retain documentation to support the valuation of in-kind contributions. Partners received
training provided by ORI staff on the requirements for valuing in-kind. Host site agencies often
pledged manpower hours of site supervisors who provided direct supervision to Americorps
members and use of facilities. While ORI was unable to collect some sensitive personnel
documents from partners, such as their internal payroll records to provide additional support, we
took the value assessed by the partner agencies and had partners document that valuation on the
approved CNCS official in-kind forms. These in-kind contributions were reviewed by CNCS
program officers and state commissions and approved at each level as a condition of receiving
continuous reimbursement. Like state commissions, we did not require detailed supporting
documentation for valuation unless there was a need for auditing the partner agencies to verify
valuation.

The CNCS Grant did not afford ORI the ability to pay for office space, telephones and related
technology, although office space was needed, ORI paid the full amount of office and utilities
associated with operating offices in Birmingham, AL; Atlanta, GA; and New Orleans, LA. Staff
associated with the grants that occupied these offices used 100% of their time running
Americorps programs in those respective locales. Fair market costs were based on the actual
costs that the organization incurred for rent and the fair market costs associated with use of
municipal gyms held by parks and recreations department in respective cities.
                                               Operation REACH Inc. OIG Response                3

Any overdraws from the payment management system were done in error from staff
miscalculation. These errors were reported to the accountant and reversed on the general ledger.
Additionally, on subsequent drawdowns from the payment management system, the Chief
Compliance Officer authorized less the overage in subsequent drawdowns to reconcile the
difference.

Respectfully, ORI believes that the OIG, during the conduct of its field work with partner
agencies could have requested additional support for in-kind valuation from the partner agencies
for further testing. Given the limited staffing resources provided by Americorps grants, ORI did
not have the ability to demand such personnel documents from each of the partner agencies that
it worked with, but did sample these agencies during the conduct of our due diligence process for
selecting partners and agreeing to count their in-kind pledges.

Recommendation:
Allow ORI time to request additional supporting documentation from specific partners for fair
market values reported and estimated by partner agencies and or amend ORI proposed budgets to
allow for a Match Waiver as allowed under the American Recovery and Reinvestment Act of
2009.

Finding 2 Employee Payroll Deficiencies
Response:
ORI employees used electronically approved time-keeping systems that were reviewed and
approved by CNCS program officers prior to implementation. Employees, associated with
implementing the Americorps program worked 100% on Americorps related tasks from
recruitment of volunteers, training, engagement in service and regularly scheduled briefing and
reflection sections. While the Americorps grant was never sufficient to cover the expenses of all
whom were associated with administrative processes and oversights, we concur with the finding
that the total costs were not fully captured by the CNCS grant. A management decision was
made not to subject other non-federally funded employee positions to undue administrative
burden. For example, the CEO regularly met with Americorps staff and managers for weekly
briefings and planning sessions. However, his supervisory time for general oversight was not
charged to the grant as federal or non-federal match. The complexity of the Americorps
timekeeping devices would substantially affect the organizational culture already set within ORI
for professional exempt employees.

We concur, that the organization did have high turnover; however, we did not specify in- name
staff persons who would be hired into positions outlined in our original proposals. Hence, during
periods of staff transition we did not understand it to be necessary to report such changes.
Critical work still needed to be advanced while conducting proper searches for staff. Also,
Despite or request for advance start-up costs to get personnel in position and acclimated at least
30 days prior to the launch date of the Americorps program, we were constantly denied. This
would have, in some instances resolved the need to use existing staff while others were being
recruited as first-time hires during critical start-up of the grant. We also, believe that the OIG
auditors did not fundamentally gain an appreciation for ORI’s continuum of programs and the
relationship of Americorps staff and volunteers to these multi-program strategies.
                                               Operation REACH Inc. OIG Response                  4
Additionally, undue delays with reimbursements from state commissions from the onset of
implementing programs also hindered ORI’s ability to hire critical staff positions in a proactive
manner in order to best manage the myriad of requirements for operating the Americorps
programs. For example, for the program year beginning in 2010 It took the Alabama
Commission five months before issuing ORI’s reimbursements. Similarly, the Louisiana Serve
Commission took approximately the same amount of time to provide ORI with its first
reimbursement after five months of implementing the Americorps programs. Requests were
made of each commission for advance planning costs in order to ensure a smooth start-up,
although this is allowed it was refused. This was the start of creating a challenging fiscal and
personnel environment within ORI. Such arbitrary delays in disbursements by state
commissions to ORI critically injured the organization’s ability to manage its own cash-flow
properly and kept the organization in constant back-peddling motion with these two receipts
alone totaling approximately $140,000. A chain of emails inquiring into delays were maintained
by ORI to document this timeline.

Recommendation:
Respectfully, we believe that greater consciousness and reciprocal accountability should be
placed on Sub-grantees at every level, including State Commissions. Lack of regard for timely
reimbursements can be injurious to an organization’s financial health. In order to effectively
implement programs, adequate staffing must be in place at the onset to facilitate effective
implementation of Americorps programs. Most non-profits cannot afford to advance such large
sums of money without an indefinite time for their reimbursement. According to federal
regulations applicable to Americorps, ORI experienced uneven adherence and or consideration
of these regulations from state commissions with regards to receiving timely payments:

       2541.210     Payment.

       (a) Scope. This section prescribes the basic standard and the methods under which a Federal
       agency will make payments to grantees, and grantees will make payments to subgrantees and
       contractors.

       (b) Basic standard. Methods and procedures for payment shall minimize the time elapsing
       between the transfer of funds and disbursement by the grantee or subgrantee, in accordance with
       Treasury regulations at 31 CFR part 205.

       (c) Advances. Grantees and subgrantees shall be paid in advance, provided they maintain or
       demonstrate the willingness and ability to maintain procedures to minimize the time elapsing
       between the transfer of the funds and their disbursement by the grantee or subgrantee.

       e) Working capital advances. If a grantee cannot meet the criteria for advance payments
       described in paragraph (c) of this section, and the Federal agency has determined that
       reimbursement is not feasible because the grantee lacks sufficient working capital, the awarding
       agency may provide cash on a working capital advance basis. Under this procedure the awarding
       agency shall advance cash to the grantee to cover its estimated disbursement needs for an initial
       period generally geared to the grantee's disbursing cycle. Thereafter, the awarding agency shall
       reimburse the grantee for its actual cash disbursements. The working capital advance method of
       payment shall not be used by grantees or subgrantees if the reason for using such method is the
       unwillingness or inability of the grantee to provide timely advances to the subgrantee to meet the
       subgrantee's actual cash disbursements.
                                        Operation REACH Inc. OIG Response                             5
We recommend that CNCS work with ORI to address any human error that occurred in the
individual documentation of staff time.

Finding 3. Member Timekeeping Deficiencies
Response:
ORI used approved electronic time-keeping systems for its employees and Americorps
volunteers. This electronic system was reviewed by CNCS staff and met the requirements of
time stamping approvals. Additionally, for some aspects of member management, ORI was
“highly” encouraged to use “Oncorps,” a new member management portal endorsed by CNCS
and its state affiliates in 2010, as a result of the national decision to abandon the former member
management system provided by Americorps. In this rapid period of national transition, many
state commissions and subgrantees experienced extreme problems with the technology, which
was malfunctioning. In these times, paper timesheets were the only available short-term
substitute at the very beginning of the start-up. The Louisiana Serve Commission, albeit these
problems with technology, randomly decided to conduct a program start-up audit during this
period.

ORI Staff provided training to all partner sites and host site supervisors on how to properly
document time and how to use the available technology, provided by ORI to manage
timekeeping of Americorps according to CNCS provisions. Host site partners, were not
employees of ORI which limited ORI’s ability to inflict consequences for delays with approving
members timesheets. Some of these delays often had to do with a number of things occurring at
the partner sites:
    1. Technology failures at host sites
    2. Turnover of host site supervisors at partner agencies
    3. Host site supervisors desensitized to timely reporting to an external agency (ORI)

These situations often left Americorps members vulnerable for not receiving stipends this is
when headquarters got involved. Resolution involved finding alternate ways to verify
Americorps members’ time via calling site supervisors, contacting supervisors via email to
confirm time, or with permission from supervisors who were delayed troubleshooting technology
problems that prohibited them from going into the system to approve time. In these instances,
the payroll processor (HR Director), program coordinator and chief compliance officer
corroborated findings and would provide the overrides in the system to eliminate the negative
consequence of Americorps members not receiving their stipend due to technical glitches or,
quite frankly site supervisor nonchalantness about timely submission.

ORI, was required by CNCS provisions to enter into member service contracts which the
responsibility and liability for administering and dispersing member living allowances was
accrued to ORI. Not providing corps members with stipends that served time, due to errors of
omission or negligence of host site supervisors put ORI in a double jeopardy situation. As the
Americorps provisions state:

       A living allowance is not a wage and programs may not pay living allowances on an hourly
       basis. Programs must distribute the living allowance at regular intervals and in regular
       increments, and may increase living allowance payments only on the basis of increased living
       expenses such as food, housing, or transportation. Living allowance payments may only be made
       to a participant during the participant’s term of service and must cease when the participant
                                                Operation REACH Inc. OIG Response                    6
       concludes the term of service. Programs may not provide a lump sum payment to a participant
       who completes the originally agreed-upon term of service in a shorter period of time.

       [73 FR 53752, Sept. 17, 2008]

 We believe our resolution honored the spirit of CNCS provisions and our contractual agreement
with Americorps members in service to ORI.

We concur with the finding, that Americorps members may not have consistently disaggregated
how they spent their service hours on their individual timesheets. We attest that members spent
their time appropriately on direct program related activities. ORI provided a one-time training
for all of its Americorps members during Pre-Service Orientation (PSO) where ORI staff
discussed the proper way to complete timesheets with members. PSO hours were captured at
trainings through sign-in sheets. It was an administrative error of host site supervisors, ORI
program staff and for the HR director processing the timesheets to review for this level of detail.
However, training hours were captured by other means.

OIG agents, noted a dual system of timekeeping in the field, in their exit conference, this
“shadow” system was not anything that ORI was aware of, but recognize that host site
supervisors may have developed personal ways of organizing and collecting time from Corps
Members on a daily, without having to necessarily go into the web-based technology for daily
data entry. These self-selected strategies of personal efficiency were beyond the management
control and scope of ORI employees responsible for collecting and reviewing time in the
approved timekeeping system for Americorps members, which was “On-corps”. Therefore, we
disagree with the insinuation that there was a dual system of timekeeping. We reaffirm that there
was only one system used, “On-corps,” which was the system that partners received training for
processing and certifying Americorps members service time in order for ORI to render them
eligible for the post-service education award, granted by the National Service Education Trust
Fund.

Recommendation:
CNCS work with ORI to obtain sworn affidavits reaffirming questioned member service from
those specific members in question.

Findings 4. Member ineligibility
Response:
We disagree with the finding. Member eligibility documents were carefully reviewed and
audited internally several times by, ORI staff and ORI’s Chief Compliance Officer prior to
members being accepted into service. In the Corporation’s requirement for more strenuous
background checks, CNCS had not sufficiently worked out the national infrastructure for
required FBI background checks to be conducted. ORI requested technical assistance and has
evidence through email chains and logs of phone conversations had with CNCS officials in the
discovery of how to comply with a requirement that had not been sufficiently coordinated with
FBI bureaus across the country. After spending a considerable amount of non-reimbursable
staff hours, but to no avail, ORI tried to reach this compliance mark but could not gain access to
FBI background checks because CNCS had not worked out coordination with the FBI.

We also disagree with the finding because there were some logistical matters with state offices in
Alabama and Georgia which required certain original documents to be maintained at the state
                                              Operation REACH Inc. OIG Response                   7
offices and copies had to be made and transported. In this short period of time, with the transit
of thousands of documents from across three states, there were challenges and OIG auditors may
have discounted non-original hard-to-read documents.

NSOPR checks were consistently checked for each enrolling corps member. If no record was
found, then a checklist was completed and placed in members’ files; additionally, the screen
page that found “no record” was also printed in placed in Americorps members’ files.

Lastly, other documents claimed not to be in the Americorps members file by the OIG, would
need further clarification, since according to the regulations:
          Verification. The grantee must obtain and maintain documentation as required by 45
       CFR§2522.200(c). The Corporation does not require programs to make and retain copies of the
       actual documents used to confirm age or citizenship eligibility requirements, such as a driver’s
       license, or birth certificate, as long as the grantee has a consistent practice of identifying the
       documents that were reviewed and maintaining a record of the review.

ORI staff used a standard checklist to indicate the review and verification of all member
eligibility documents. Therefore, clarification is needed to understand what is required by
regulation to be in the file folder vs. what needs to be verified prior to member enrollment.

Recommendation:
CNCS notify Operation REACH of the specific names of members who allegedly had a missing
document(s) and ORI will make every effort to relocate the document and or to reaffirm the
members’ eligibility status in question. Have individuals missing copies of diplomas sign a
declaration regarding high school diploma sufficient for enrollment under penalty of law.


Finding 5 VISTA Member Engaged in Unallowable Service
Response:
We disagree with the finding that ORI engaged VISTA member in unallowable service. We
believe that the OIG lacked a full appreciation of the Post Hurricanes Katrina and Rita context in
which ORI operated, while rebuilding its own infrastructure and supporting the rebuilding and
restoration of youth organizations across the affected Gulfcoast region. ORI, like most
organizations post-Katrina and Rita had frail infrastructures as agencies were rebuilding after the
nation’s worst natural disaster. Hence, VISTA served a critical role in helping the organization
rebuild and adjust to the rapid growth to meet the needs of the Gulfcoast region post these
disasters. Prior to the Americorps grant, ORI had a meek staff of not more than three full-time
employees and a partial volunteer Founder/ Executive Director. Hence, to adjust to the rapid
growth to serve vulnerable and impoverished kids across the Gulfcoast states VISTAS assigned
to ORI played a pivotal role that would have made the scale-up wholly unmanageable had they
not been assigned. As we understood the VISTA program to be key in doing this, we wrote
VADS to address the organizational needs of ORI. These VADS were approved by VISTA
officials and implemented accordingly.

We also disagree with the insinuation that a VISTA member did not understand who is
supervisor was. VISTA supervisors were those members of ORI staff that had gone to the
official VISTA supervisor trainings. Internally, ORI VISTA supervisors would assign VISTA
members to particular staff leading growth and expansion initiatives. VISTAS would assist in
such projects as they aligned with their VAD.
                                                        Operation REACH Inc. OIG Response                           8

We objectively disagree with the assessment that these VISTA did not do what the VADS
authorized. We also recognize the intersubjective confusion could persist based on the questions
asked to elucidate the breadth and scope of the VISTA’s contribution. In the absence of the
VISTA ORI did not use VISTA as a substitute for staff positions. VISTAs helped research,
develop and implement new technologies and strategic plans to help build capacity of the
organizational infrastructure that went from serving a few hundred children in New Orleans, to
serving 10,000 through 39 partners across three states. This was the major thesis of our initial
proposal to CNCS to rebuild and restore capacity and infrastructure of youth serving
organizations post-Katrina and Rita.


According to the following expert taken from VISTA Program literature disseminated by CNCS:
         VISTA members are assigned to organizations to work at tasks determined and defined by
         these sponsoring organizations and the low-income communities they serve.

VISTA’s as Organizational Developers
VISTA members serving as organizational developers are charged either with strengthening existing organizations
or developing new organizations. Development of new organizations is approved only when it can be documented
that the low-income community perceives a need for the proposed organization and had demonstrated it will be
actively involved in supporting the organization.

VISTA organizational developers usually assist fledgling grassroots groups. VISTA members are often requested
to help strengthen organizations that are struggling with less than adequate resources or do not have a structure
adequate to maintain the services they wish to provide. Typical job functions include assisting in:
            Establishing or strengthening a Board of Directors and/or advisory groups
            Obtaining non-profit, tax-exempt status
            Setting up or refining administrative systems
            Developing funding approaches and mobilizing cash and in-kind resources
            Developing an effective volunteer program
            Establishing long range and short term goals
            Devising systems for responsive service provision
            Developing a public relations program



Recommendation:
CNCS allow ORI to get a sworn affidavit from the VISTA in question outlining his VAD and
indicating percentage of time spent according to VAD.

Finding 6. Improper Accounting and Unsupported Program Income
Response:
We concur with the finding that ORI has had significant turnover. In context, while the
organization endeavored to deal with post-traumatic stress as experienced by children and youth,
many of the adult workforce who lived through these times were impacted in much the same way
to the degree that these stressors impacted their coping in the workplace. Given this reality, ORI
had 7 different grant/financial managers over the 3-year course of the CNCS grant cycle. New
sophisticated accounting systems were put in place and implemented prior to the scale-up. These
systems were reviewed and approved by CNCS program /grant officers. Constant feedback was
given throughout the grant period to increase the efficiency in “real-time” reporting, as some
processes lagged that were still being done manually by an external CPA. There was constant
pressure exerted on the organization to change systems mid-stream to address desires of CNCS.
Based on these “turn-on-a-dime” expectations, ORI complied to the best of its humane and
                                                Operation REACH Inc. OIG Response               9
financial resources. Based on the organization’s resources, the system in place to allocate
expenses to the appropriate program funds was performed after funds had actually been received.
Initially, the Operating account had to absorb expenses and then manual cost
transfers/reallocations of allocable expenses were done to the appropriate program. At times of
random audits, such as the one conducted by the OIG, these manual processes may have lagged
by 30 or more days.

We disagree with the finding that ORI did not use program income from collected match fees to
support program related activities/costs. We reaffirm that ORI used programmatic fees to pay
for non-federal costs not covered by the grant, such as office space in Alabama, Georgia,
Louisiana which housed Americorps staff and provided a central meeting and coordination hub
for its local Americorps volunteers. Additionally, background checks, member uniforms and
some member benefits were not fully covered by the Americorps grants and ORI pledged match
dollars. If these recycled dollars (collected match fees), were not properly documented in
correlation with expenses not covered by Americorps federal share, then this was an
administrative error that can be corrected. Some of the actual match expenses that could not be
met with in-kind contributions were met with real dollars collected from partners.
Unequivocally, we know that the organization had to spend resources above and beyond the cost
of operating the Americorps program.

Recommendation:
CNCS should work with ORI to provide documentation of how the collected match funds were
used and actually supported some of the questioned match expenses.
             Appendix F


Corporation’s Response to Draft Report
